<html>
<title> - NOMINATION OF C. LOUIS KINCANNON</title>
<body><pre>[Senate Hearing 107-386]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-386
 
                    NOMINATION OF C. LOUIS KINCANNON
=======================================================================


                                HEARING

                               before the


                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                 ON THE

  NOMINATION OF C. LOUIS KINCANNON TO BE DIRECTOR OF THE CENSUS BUREAU

                               __________

                           FEBRUARY 28, 2002
                               __________

      Printed for the use of the Committee on Governmental Affairs






                     U.S. GOVERNMENT PRINTING OFFICE
78-623                       WASHINGTON : 2002
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                   COMMITTEE ON GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 FRED THOMPSON, Tennessee
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
RICHARD J. DURBIN, Illinois          SUSAN M. COLLINS, Maine
ROBERT G. TORRICELLI, New Jersey     GEORGE V. VOINOVICH, Ohio
MAX CLELAND, Georgia                 PETE V. DOMENICI, New Mexico
THOMAS R. CARPER, Delaware           THAD COCHRAN, Mississippi
JEAN CARNAHAN, Missouri              ROBERT F. BENNETT, Utah
MARK DAYTON, Minnesota               JIM BUNNING, Kentucky
           Joyce A. Rechtschaffen, Staff Director and Counsel
                       Lee Ann Brackett, Counsel
              Jason M. Yanussi, Professional Staff Member
         Hannah S. Sistare, Minority Staff Director and Counsel
                  Johanna, L. Hardy, Minority Counsel
                   Jana C. Sinclair, Minority Counsel
                     Darla D. Cassell, Chief Clerk







                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Thompson.............................................     4
    Senator Bennett..............................................     5
    Senator Cochran..............................................    15
Prepared statements:
    Senator Akaka................................................    16
    Senator Bunning..............................................    16

                               WITNESSES
                      Thursday, February 28, 2002

Hon. George Allen, a U.S. Senator from the State of Virginia.....     1
Hon. Tom Sawyer, a Congressman from the State of Ohio............     5
C. Louis Kincannon to be Director of the Census Bureau...........     7
    Prepared statement...........................................    19
    Biographical and financial information.......................    21
    Pre-hearing questions and responses..........................    27
    Additional pre-hearing questions from Senator Akaka and 
      responses..................................................    50
    Post-hearing questions from Senator Durbin and responses.....    52
    Post-hearing questions from Senator Bunning and responses....    54










  NOMINATION OF C. LOUIS KINCANNON TO BE DIRECTOR OF THE CENSUS BUREAU

                              ----------                              


                      THURSDAY, FEBRUARY 28, 2002

                                       U.S. Senate,
                         Committee on Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:34 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Thompson, Cochran, and 
Bennett.

             OPENING STATEMENT OF SENATOR LIEBERMAN

    Chairman Lieberman. Good afternoon. The hearing will come 
to order. Senator Allen, do you have time to suffer the burden 
of hearing the opening statements of the three of us, or are 
you in a rush to get somewhere?
    Senator Allen. I was actually supposed to co-chair a 
meeting with Senator Sarbanes in Foreign Relations at 2:45 p.m.
    Chairman Lieberman. Why don't you go ahead? We will go out 
of order and have you do the introduction and then we will come 
back and do our opening statements. Pleasure to welcome you 
here.
    Senator Allen. Thank you for your indulgence, Mr. Chairman 
and Members of the Committee.
    Chairman Lieberman. Not at all.

OPENING STATEMENT OF HON. GEORGE ALLEN, A U.S. SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Allen. I appreciate it very much. It is a pleasure 
to be here, and it is a pleasure and privilege to introduce an 
outstanding Virginian, Charles Louis Kincannon--he goes by 
Louis Kincannon as opposed to Charles. I would like to thank 
you for your consideration of his nomination as director of the 
U.S. Census Bureau. He is here with his wife Claire and 
daughter Alexandra and her husband Paul. There is another 
daughter, India, who is off in the hallway with a granddaughter 
Dahlia. You might have--there she is. I heard her. She heard 
her name. Sounds like Dahlia. There she is.
    Chairman Lieberman. We heard Dahlia, yes. It is a welcome 
sound in this room. We do not hear it too often.
    Senator Allen. It is appropriate, Mr. Chairman, that a 
Virginian be selected to lead the Census Bureau into the 21st 
Century. As you all know as students of history, the first 
census was done back in Jamestown in the early 1600's, even 
before Virginia and our country was an independent nation. That 
first census conducted in our Nation in 1790 counted 3.9 
million inhabitants. That would be a relatively small populated 
State these days, but that is what our country had then.
    Now the Census Bureau, as it has been transformed through 
our history will be soon celebrating its 100th birthday, and I 
am very confident, Mr. Chairman, that Mr. Kincannon who himself 
has had a long and respected history with the Census Bureau, is 
the right choice to direct the Census Bureau in the next 
century. I would like to take a few moments to highlight Mr. 
Kincannon's experience and accomplishments in the Census Bureau 
since joining the bureau as a statistician back in 1963.
    Mr. Kincannon is well respected within and outside the 
Census Bureau. He is only the second career civil servant to be 
nominated as director of the Census Bureau. Mr. Kincannon 
already has experience that makes him very well prepared to 
take on the role as director, having served as acting director 
for 9 months during the administration of President Ronald 
Reagan, and again for nearly a year under the administration of 
the first President Bush.
    In addition, he has served for more than 10 years as deputy 
director, which is the second longest tenure of anyone in this 
post. Mr. Kincannon's service as deputy director continued 
under three directors. This is just a brief example of Mr. 
Kincannon's long history of experience and service that makes 
him uniquely qualified to take the helm of the U.S. Census 
Bureau, notwithstanding the sounds of his granddaughter Dahlia.
    So I know that Representative Sawyer is going to want to 
have some words to share with the Committee, and I thank you 
all for having this hearing. I am sure you will have good 
questions of Mr. Kincannon and will find him a person that you 
will be very confident to be heading the Census Bureau and 
doing it in an accurate and fair manner.
    Thank you, Mr. Chairman, and Senators Bennett and Thompson.
    Chairman Lieberman. Thank you, Senator Allen. Appreciate 
your coming here to introduce Mr. Kincannon.
    Mr. Kincannon, we are happy to have you before the 
Committee today because the post to which you have been 
nominated exerts enormous influence over the lives of all 
Americans. Quite literally, you are one of the people who will 
decide who is counted and who is not; who will benefit from 
Federal resources and who will not.
    I just had a--I do not know why I turned to you, Senator 
Thompson, but I had a flashback to a wonderful movie, The Jerk. 
Do you remember that one with Steve Martin where he----
    Senator Thompson. I beg your pardon. [Laughter.]
    Chairman Lieberman. I was thinking of movies, not jerks, 
when I turned toward you, Senator Thompson.
    Senator Thompson. Those two ideas did come together.
    Chairman Lieberman. No. When he finds his name in a phone 
book and runs around screaming, I am somebody. So it is with 
the census. We did not rehearse that----
    Senator Thompson. But first he said the new phone books are 
here, the new phone books are here.
    Chairman Lieberman. I see you remember the movie.
    So it is essential that the Census Bureau chief be fair-
minded, a professional administrator who will guarantee not 
only the most accurate and scientifically sound count, but who 
will also guarantee that all elements of our country, 
especially people who have been historically undercounted, are 
included in our census tabulations.
    Mr. Kincannon, your years of public service speak very well 
for you, Beginning your career 30 years ago as a Census Bureau 
statistician you have steadily risen through the ranks. In 1975 
you left the Bureau for the Office of Management and Budget 
where you worked with Jim Miller at OIRA and received a 
commendation from then Vice President Bush for your work on 
regulatory reform. In 1981, Mr. Kincannon returned to the 
Census Bureau as deputy director and served in that post 
through the first President Bush's administration. Twice during 
that period he served as acting director, and in 1992 was 
appointed the first chief statistician in the Organization for 
Economic Cooperation and Development.
    Mr. Kincannon, I would say for the record, was born in 
Waco, Texas, is a graduate of the University of Texas at 
Austin, did graduate work at Georgetown, G.W., and the 
University of Maryland. Except for 8 years in Paris, which we 
will probably not question you about here today, Mr. Kincannon 
and his wife, as Senator Allen indicated, have resided in 
Virginia. They have two daughters.
    Now here is an interesting next part of my statement, which 
goes right to the function of counting. The original version 
said, and expecting their first grandchild soon. Then we heard 
Dahlia and it was changed to, another grandchild soon. But is 
it the second or----
    Mr. Kincannon. It is a commentary on the length of the 
confirmation process. [Laughter.]
    Chairman Lieberman. Very well said.
    Senator Thompson. We asked for that, didn't we?
    Chairman Lieberman. This is the second grandchild you are 
expecting?
    Mr. Kincannon. It is the second one we are expecting, yes. 
We are expecting more than that, but----
    Chairman Lieberman. Eventually, right. That is the way we 
feel about our population, too.
    Obviously you have demonstrated your loyalty to and 
affection for the Census Bureau, and have twice proven your 
expertise as the Bureau's acting director.
    Most people know that the Bureau is the government agency 
that counts the population every 10 years. Less known is that 
it regularly provides government, business, and academia with 
an updated picture of who we Americans are as individuals, 
communities, and a Nation. With so many aspects of our society 
dependent on the Bureau's work, the director must encourage 
cooperation and openness among his ranks. The agency has long 
been criticized for its insular nature, so I hope that you will 
work to make the Bureau a more customer friendly place.
    I also want to add a word about the controversy that has 
surrounded the fairness of the decennial count. This is a 
controversy that has now gone on for 2 decades. We are a Nation 
of entrepreneurs, scientists, and thinkers; the most 
technologically advanced country on the globe. Our population 
counts, I believe, should reflect that mastery.
    In other words, we should be using the most advanced 
methods at our disposal to capture the most accurate portrait 
of our people. We know that the actual enumeration, the effort 
to count every head, does not provide an accurate count of the 
country's diverse population, particularly the poor, African-
Americans, Hispanic Americans, and Native Americans.
    We also know that statisticians have long used a variety of 
methods to help them provide more accurate data. The Census 
Bureau has used these methods to try to make the decennial 
census more accurate, but for a variety of reasons has not 
incorporated the results into its final census numbers. 
Consequently, we cannot be sure that our House seats are 
correctly apportioned, our Congressional districts are properly 
drawn, or our government resources directed to all the people 
they should be directed to. In turn, the decisions of private 
investors, the blueprints of community planners, the efforts of 
our local school boards, and many others are different than 
they might otherwise be.
    So I will say to you directly that I am concerned about the 
Bureau's methodology, but this is not, of course, just a 
statistician's battle. This is about the equitable treatment of 
all Americans, especially those whose voices are too often not 
heard. The Census Bureau serves a very broad constituency, 
which is the constituency that contains uniquely every 
American. I think it must be responsive to that fact.
    Senator Thompson.

             OPENING STATEMENT OF SENATOR THOMPSON

    Senator Thompson. Thank you very much, Mr. Chairman. 
Congratulations, Mr. Kincannon, on your nomination. I am 
pleased to have the opportunity to discuss some issues with you 
today that are important to all of us. We all know the Census 
Bureau conducts an actual head count of Americans every 10 
years, but of course, the Bureau does much more than that. 
Economic data is the Census Bureau's primary program commitment 
during the other 9 years. These programs cover every non-farm 
sector of the economy, feature industry and geographic detail, 
and provide key measures of current performance.
    Every 5 years the Bureau uses censuses to gather detailed 
statistics about virtually every business, industry, farm, and 
government, and more frequently the Bureau uses monthly, 
quarterly, and annual surveys to update and extend the censuses 
with current economic statistics. These programs provide key 
measures of current economic performance and are widely used by 
policy officials and economic analysts.
    Mr. Kincannon has a strong background in issues related to 
the census and to statistics, and he will bring 40 years of 
experience and service as director of the Census. I believe his 
background and expertise more than qualifies him for this 
position and demonstrates his commitment to public service.
    Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Thompson. Senator 
Bennett.

              OPENING STATEMENT OF SENATOR BENNETT

    Senator Bennett. Thank you, Mr. Chairman. Mr. Kincannon, I 
look forward to having a dialogue with you here about some 
issues that I have. But I want to make it very clear, I support 
your nomination. I am prepared to vote for it in Committee; I 
am prepared to vote for it on the floor. I think you bring an 
expertise to this position that we can all be proud of, and 
that you can be proud of as the capstone of your career. It is 
not always that folks who go the civil servant route end up 
presiding over the agency that they work for, but it is a 
demonstration of the high esteem in which you are held that you 
have the kind of bipartisan support you have.
    So with that, Mr. Chairman, I look forward to the question 
period.
    Chairman Lieberman. Thanks, Senator Bennett. Congressman 
Sawyer, great timing. We welcome you and would be glad to hear 
an opening statement or introduction at this time, if you would 
like.

OPENING STATEMENT OF CONGRESSMAN TOM SAWYER, FROM THE STATE OF 
                              OHIO

    Mr. Sawyer. Thank you very much. Chairman Lieberman, 
Senator Thompson, and Senator Bennett, it really is a pleasure 
to join you here today in this introduction of President Bush's 
nominee for the position of Census director, Charles Louis 
Kincannon. I have been privileged to introduce two other 
director nominees to this Committee, Dr. Barbara Everett 
Bryant, who served in the administration of President George 
Bush, and Dr. Martha Farnsworth Ritche, President Clinton's 
first Census chief.
    If confirmed, Mr. Kincannon will join a distinguished group 
of mathematical and social scientists who have led the agency 
through social transition, demographic shifts, and political 
mine fields. As you know, I chaired the House Subcommittee on 
Census and Population from 1989 through 1994, and it was in 
that capacity that I first met Louis, who had just assumed the 
post of acting director in the then-infant first Bush 
Administration. From different perspectives but with common 
goals we forged an effective working relationships. It has 
endured as we discovered shared interests beyond the census, 
per se, particularly with respect to international statistics.
    The 1990 Census was conducted amid high expectations and 
deep controversy. In the crucial year before the count Louis 
took the reins as acting director. It was not an easy time. 
Litigation had imposed late design changes, Congressional 
concerns had stalled final content decisions, local 
stakeholders were demanding a more thorough preparation. Louis 
approached each challenge with the steady determination of a 
seasoned manager, and the sensitivity of a political veteran, 
working closely and cooperatively with the Congress to lay the 
final groundwork for the execution of the Census.
    It was during his tenure at the Bureau that Louis' 
leadership role extended beyond the obvious stature of the 
positions that he both held and assumed. His contributions 
included many improvements to the Census Bureau that paved the 
way for continued innovations in 2000, including the first 
single-night enumeration of people living in shelters and on 
the streets, targeted advertising campaigns developed by 
minority-owned firms, and the first use of digital maps to 
replace the onerous hand-drawn ones.
    Louis Kincannon is poised to take up the leadership mantle 
in his own right as the agency is at another crossroads. The 
outcome of 2000--how shall I put this?--challenged the 
confidence of many stakeholders. Accurate benchmarks like 
demographic analysis and intercensal population estimates 
appeared to slip. Shifting results from the coverage evaluation 
survey and the Bureau's decision not to use the survey may have 
eroded goodwill that had been built up through the successful 
Census 2000 partnership program.
    As the agency prepares to launch its largest new 
initiative, the American Community Survey, the support of 
stakeholders must be earned, cannot be taken for granted, and 
needs the leadership of a man who has earned that trust for 
many years.
    It also faces management challenges at the Bureau that are 
in some ways unique among civilian agencies. The census 
requires years of planning, preparation, followed by lightning 
execution in real time, without flaws. More broadly, at a time 
of heightened concern about privacy and confidentiality of 
personal information, the Bureau has to demonstrate its 
relevance to the Nation's security and economic objectives 
while preserving its independence as a statistical agency.
    I do not have any doubt that Louis Kincannon is up to those 
tasks and that he commands the respect both inside and outside 
the agency to restore confidence in the agency's competence and 
integrity, a competence and integrity that I believe has always 
been there but whose confidence may have been shaken.
    He is an excellent choice to head the Census Bureau at a 
difficult time in history. His prior leadership will bring 
stability in the wake of senior staff retirements. His 
international experience will add a fresh and important 
perspective as we document our Nation's social and economic 
recovery in the wake of global turmoil. With his nomination the 
President pays tribute to a career marked by high professional 
and ethical standards, competence and grace under pressure, and 
an absolute commitment to public service. The recognition is 
well deserved and I am pleased to be able to be here to urge 
the Committee to act quickly and without hesitation.
    Chairman Lieberman. Thank you very much, Congressman 
Sawyer, for a very thoughtful statement, for taking the time to 
come over to this side of the Hill to say that about the 
nominee. I appreciate it very much. Our goal is to have this 
nominee confirmed before the family has another grandchild.
    We will proceed. For the record, let me say that Mr. 
Kincannon has submitted responses to a biographical and 
financial questionnaire, has answered prehearing questions 
submitted by the Committee and additional questions from 
individual Senators, and has had his financial statement 
reviewed by the Office of Government Ethics. Without objection, 
this information will be made part of the hearing record with 
the exception of the financial data which is on file and 
available for inspection in the Committee's office. In 
addition, the FBI file has been reviewed by Senator Thompson 
and me pursuant to Committee rules.
    Mr. Kincannon, our Committee rules require that witnesses 
at nomination hearings give their testimony under oath, so I 
would ask you at this point to please stand and raise your 
right hand.
    [Witness sworn.]
    Chairman Lieberman. I thank you. Please be seated. The 
record will show, if it did not audibly, which I believe it 
probably did, that the witness answered in the affirmative. We 
welcome you officially, and your family, and would be glad to 
hear a statement that you might want to make at this time.
    Mr. Sawyer. Mr. Chairman, if I might be excused, I have an 
airplane I need to catch.
    Chairman Lieberman. Definitely.
    Mr. Sawyer. I thank you very much.
    Chairman Lieberman. Safe travel and thanks for stopping by.

TESTIMONY OF C. LOUIS KINCANNON\1\ TO BE DIRECTOR OF THE CENSUS 
                             BUREAU

    Mr. Kincannon. Thank you, Mr. Chairman. It certainly is an 
honor to me, as well as a pleasure, to appear before this 
Committee today. If I remember correctly, I did appear in this 
room once before at the side of Wayne Grandquist at the time he 
was an associate director at the Office of Management and 
Budget; maybe a name known to you and someone I have lost track 
of. Maybe we can catch up with him someday.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Kincannon appears in the Appendix 
on page 19.
     Biographical information appears in the Appendix on page 21.
     Pre-hearing questions appear in the Appendix on page 27.
     LAdditional pre-hearing questions from Senator Akaka and responses 
appear in the Appendix on page 50
     LPost-hearing questions from Senator Durbin and responses appear 
in the Appendix on page 52.
     LPost-hearing questions from Senator Bunning and responses appear 
in the Appendix on page 54.
---------------------------------------------------------------------------
    It is also one of the greatest honors of my life to be 
nominated for this post by President Bush. It is a pleasure 
because President Bush is a fellow Texan, and it is also a 
pleasure because the Census Bureau sought me out when I was 
still in university, and hired me, and invested in me over a 
period of time. It gave me a career that was as interesting as 
anyone could hope for, and I am very glad to have an 
opportunity to rejoin that community.
    It is a community that sometimes can be seen as insular, 
but it is also solid and performs great services for the 
country. My task will be in part to make sure that that 
strength is maintained and the insularity becomes more 
transparent all along.
    I am certainly grateful for the introduction of Senator 
Allen, who has had to take me on faith, and also for 
Congressman Sawyer who knows me from the past. So I am very 
honored to have both of them introduce me to this Committee.
    If the Senate confirms me in this post I will build on the 
base of a very good 2000 Census. Those results depended on the 
professional staff, they depended on the leadership of Dr. 
Bryant, of Dr. Riche, and Dr. Prewitt, who were the directors 
in the period of planning and lead-up to the Census 2000 and 
through it. The success of the census in 2000 would not have 
been possible without the support of the Congress. Not just a 
token of support, but with a lot of time spent understanding 
the problems of the census and making sure the resources 
necessary and the guidance necessary were available to the 
Census. I am very grateful for that.
    I hope to build on that success with your help and 
cooperation. We have an opportunity to do an even better job in 
2010, given what we have learned and what we see before us as 
steps that we can take, particularly through the introduction 
through the American Community Survey, improvements in 
geographic tools, to build on successes in the past. And very 
intensive cooperation with the users of the results, which of 
course, includes the Congress, but includes the governors, 
mayors, and other local government officials as well as the 
business and academic community.
    We also need to make improvement in economic statistics. 
Our economic security depends in part, an important part, on 
what we know about the activities in our economy. I believe 
that it is not my view alone that this area has not received in 
recent years the resources it probably needs to keep up with 
the accurate description of a rapidly changing economy. This 
need is not confined to the statistics produced by the Census 
Bureau and I will, if confirmed in this post, work with the 
sister agencies of the Census Bureau in making sure that a 
practical program is proposed to the Congress.
    I also want to say that I would pay close attention to 
recruiting and retention at the Census Bureau. The whole 
Federal Government faces a challenge as demographic changes 
come upon us, in retaining good staff when they reach 
retirement age, or even when they respond to competitive salary 
offers, and in recruiting and interesting young people to come 
and spend the 20 or 30 years that is necessary to have a high 
payoff for them as well as for the country.
    The Census Bureau cannot solve these problems by itself, 
but I believe I can help by making it continue to be a good 
place to work that offers satisfaction to employees, and a 
sense of mission in the interest of the country.
    I thank you for your indulgence in this and I think a copy 
of this statement has been submitted for the record, if it is 
permitted, sir. Thank you.
    Chairman Lieberman. Thank you. Thanks for a very good 
opening statement. One of the last points you made anticipated 
one of the questions I was going to ask, which I always ask 
when Senator Voinovich of Ohio is not here because he is 
focused on this challenge of human capital management, which is 
to say, assuring that we are retaining and attracting good 
people to Federal service.
    It was interesting to hear you recall that the Census 
Bureau found you, I guess at the University of Texas, and 
recruited you here. I do not know how much we go out any more 
to recruit at college campuses. I do not know about the Census 
Bureau, but the Federal agencies generally. Just as that 
process ended up attracting you to a lifetime of service, which 
in this nomination culminates--does not end--we have to assure 
the same for succeeding generations. So I appreciate that you 
mentioned that.
    Let me ask first some questions that we ask of all 
nominees. Is there anything that you are aware of in your 
background which might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Kincannon. No, sir, I am not.
    Chairman Lieberman. Do you know of anything personal or 
otherwise that would in any way prevent you from fully and 
honorably discharging the responsibilities as director of the 
Census?
    Mr. Kincannon. No, sir, to the limit of my competence.
    Chairman Lieberman. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted Committee of Congress if you are 
confirmed?
    Mr. Kincannon. Yes, sir, I do.
    Chairman Lieberman. Great. Let me get to a point that I 
raised in my opening statement. I will begin with a GAO report 
in 1998 that said, ``Certain racial and ethnic minorities have 
long been undercounted in the Census.'' The Bureau has 
attempted, I know, to quantify this undercount using 
statistical sampling methods. To date adjusted estimates have 
not been used for any official purpose or released for public 
review.
    So my first question is, do you agree, first on a baseline 
question, that the decennial census has historically and 
persistently undercounted certain populations?
    Mr. Kincannon. Yes. The Census Bureau itself has long 
provided the evidence that is the basis for that understanding, 
and for planning for efforts to try to correct it.
    Chairman Lieberman. So let me then ask you first what your 
general thoughts are about the feasibility and desirability of 
using statistical methods to make the decennial census more 
accurate.
    Mr. Kincannon. As to desirability, I think it is desirable 
for us to use tools at hand that can produce a better count of 
the population. That has to be limited by what the law 
provides, and it has to be limited by the practicality of that 
work so that we can produce results that stand up to scientific 
scrutiny, and alas, these days it has to stand up to legal 
challenge as well. So those are limits to consider.
    As to the feasibility, I retain a confidence that at some 
level of geographic detail it will be feasible to do this. I 
have less confidence now, after 20 years of the Census Bureau 
working on this, that we can produce satisfactory changes in 
data, or adjustments in data, for very small levels of 
geographic detail. But I do retain the confidence that we can 
do it at higher levels of geography.
    At least a couple of countries in the world adjust their 
census results using similar techniques or analogous techniques 
at the province or state level. The law currently stands in the 
way of doing that for purposes of apportionment, and it would 
remain for the Congress, I think, to decide whether that should 
change. But that surely would be technically possible. Whether 
it would make a significant change in the results is another 
question quite aside.
    Chairman Lieberman. Interesting. I was going to ask you 
what would be the break point or the line between an area that 
was too small for a statistical method to be valid and one that 
would be large enough.
    Mr. Kincannon. Depends on the use that the data are going 
to be put to. Redistricting is a very conflicted task and its 
challenge----
    Chairman Lieberman. We have noticed.
    Mr. Kincannon. Figures used there--we can produce estimates 
of unemployment in the statistical system for comparatively 
small areas. But those are not customarily challenged in court 
or, other than in an argumentative sense, in the political 
arena either. And they are produced with a margin of error on 
either side.
    That is not satisfactory for redistricting, at least in my 
limited experience with that. You cannot say that this line can 
be drawn here or it could be drawn a little over there and do 
the best you can. That does not work very satisfactorily. I am 
not sure that it is a happy situation if we were to say the 
final seat assigned by the method of equal proportions in the 
House of Representatives goes either to one State or another 
plus or minus 15 percent. That would see us in court and I do 
not know quite what a court would do with that. So it would tie 
up potentially the other body in discussing that.
    So the use has to be defined. If we are going to use the 
figures for allocating payments to hospital districts or to 
fairly large areas like that, a State or a large city, and the 
results are to be used in an administrative program where they 
do not have to withstand extremely strict legal scrutiny, then 
I think that some job could be done with that.
    Chairman Lieberman. That will continue to be a topic of 
interest and we look forward to continuing the dialogue on it.
    Let me ask you a similar question. As you know better than 
I, demographic analysis which uses birth, death, migration, and 
other key records to determine national estimates of the 
population is used to check the accuracy of the 10-year census. 
Although demographic analysis has been considered a fairly 
effective method to determine overall population statistics 
there are critics who say that it is increasingly less reliable 
because its estimates fail to fully account for increases in 
immigration which have been rather sharp in recent times.
    I wanted to ask what your opinion is of the Census Bureau's 
current ability to track both documented and undocumented 
immigrants for Census purposes.
    Mr. Kincannon. We presume that the problems in tracking 
documented immigrants are less than for undocumented 
immigrants. But none of the institutions of the country seem to 
do a particularly outstanding job in tracking immigrants once 
they are in the country. It is a difficult job and the approach 
toward the problem has been based on this country's tolerance, 
and indeed encouragement of migration, to build the country. I 
do not think any of us wants to see that change.
    I have not looked at the methods used in the Census Bureau 
for estimating immigration for almost 10 years. I think that 
the methods for tracking legal migration are pretty robust. I 
think that the task of measuring undocumented immigration is 
much more difficult, and I am not able to speak to whether 
improvements have been made in the last 10 years.
    Chairman Lieberman. One more question for me on this round. 
This Committee has worked on the Government Performance and 
Results Act with some intensity and pride. That, as you know, 
calls for setting performance goals, measures for programs in 
the Federal Government. The GAO has used measures like the real 
dollar cost per household, the return in proxy rates, for 
Census forms in productivity measures to evaluate the Census. 
Do you think these are appropriate performance measures for the 
next census? If not, what might you recommend?
    Mr. Kincannon. I think that they are useful. I do not know 
that those kinds of measures alone tell the whole story. 
Certainly I think it is correct to observe that the cost per 
household has risen sharply over the recent 30 or 40 years of 
census taking, certainly. How does one account for the value of 
ensuring that every person is counted, or doing the best job 
possible? That is a question that is not really amenable to a 
scientific answer. It is worth a lot. It is like counting votes 
accurately; it is worth a lot to try to do.
    The Congress proved more generous in the last round of 
census taking than ever before and it no doubt reflected the 
Congress' concern that we do the very best job that we could. 
That paid off. I hope that we do not approach the Congress with 
a similar degree of increase for 2010, but I do want to make 
sure that we make clear to the Congress what we are doing and 
what we think we can buy in terms of better counting of all the 
people, because I think that is an important question.
    Chairman Lieberman. Good. Actually I had some numbers here; 
that the real dollar cost per household for the census went 
from $24 in 1980 to $56 in 2000. I would urge you to think 
about performance measures and we welcome your recommendation 
to us and to GAO about how to go forward with those.
    Senator Thompson.
    Senator Thompson. Thank you, Mr. Chairman. The 
Congressional Budget Office has been seeking information from 
the Census Bureau that it wishes to use to analyze Social 
Security reform proposals. I am sure you are aware of that. It, 
of course, is going to be an issue that is very important to 
this Congress. It is very important that we have the best 
information possible in addressing this issue.
    Of course, we are also mindful of the importance of 
confidentiality. CBO is working on, or has suggested ways, in 
which confidentiality could be maintained. I know the Bureau 
holds its information very closely, as it should. But will you 
work with the CBO to address this problem and give it due 
consideration if you can work out the confidentiality 
difficulties?
    Mr. Kincannon. Yes, certainly we will work--I will work 
closely with the CBO to try to meet their needs in the context 
of the law. I do not know the details of the needs of the CBO 
or of the current working relationship between the Census 
Bureau and the CBO. I do know that the agreement was revised as 
recently as October and I would be very happy to meet with the 
director of the CBO or whoever to understand what shortcomings 
or what kinds of problems may still exist.
    We are constrained by the law and the law is there for a 
good reason. I am fond of saying that when you step up on a 
front porch and ask a household for private information, 
information they regard as their own business, you have to have 
a fairly simple story to tell about confidentiality. Now we 
have a simple story to tell, and I want to continue having a 
simple story.
    But I do pledge that I will work with the CBO to try to 
meet those extremely important needs.
    Senator Thompson. It does not look to me like it is 
insurmountable. I do not believe they need names or information 
that would compromise what you are concerned about. They do 
have access to IRS information, and classified information and 
things of that nature. So I think they have proven that they 
can protect confidential information. So I would like to see 
you all get together and sit down and discuss it and see what 
the responsible thing to do is on that so both of those 
considerations could be served.
    Second, I am sure you are aware many Congressional offices 
received complaints about the long form during the last census 
and we are starting to hear from some folks about the American 
Community Survey which is currently implemented now in selected 
areas. I know the Bureau spent a lot of money educating the 
public about the decennial census and it appears to have done 
some good.
    What do you anticipate the Bureau will do to inform the 
public about not only the fact that there is an ACS but why it 
is needed?
    Mr. Kincannon. We will try to explain to them that first it 
will avoid a lot of Americans having to report in 2010 if the 
ACS is successful in its implementation. We will also explain 
directly to them, and hopefully through governors, mayors, and 
city councils, and so on, the great benefits of new data 
available every year for areas of 60,000 population or more. 
That is a big deliverable to the public, local officials, that 
the Census Bureau really has not been able to offer before. It 
does require that people answer questions, but if they 
understand the benefits in their community then it can be 
helpful.
    I think we need to make sure that local governments and 
local media know when we are doing that work in their area and 
why, so that they can explain to the public. We need to make 
sure that Congressional offices are aware of what is happening 
and when, so that they can give an answer as to why this is 
useful to local government and to the national----
    Senator Thompson. It is going to require a public relations 
campaign though, is it not?
    Mr. Kincannon. Yes, sir.
    Senator Thompson. Thank you, Mr. Kincannon, that is really 
all I have. I am glad that you are willing to continue your 
public service. At first blush, one would think that 
mathematics and statistics would be a rather dry area for some 
people, until you quickly realize in this job you are counting 
people and voters and things of that nature and it can become 
quickly fraught with political peril.
    I would just urge you, as I know you will, to avoid 
pressure from the left or the right and do not worry about how 
things are going to turn out in the end but faithfully follow 
the process, follow the law, use intellectual honesty and 
things that you know are right and let the chips fall where 
they may. I know you will do that.
    Mr. Kincannon. Thank you, Senator. I will also warn you, 
you may hear from my granddaughter again since she lives in 
Knoxville these days.
    Senator Thompson. Does she really? I know there was 
something about you I liked. Thank you very much.
    Chairman Lieberman. Just another Tennessee voter coming 
along. Senator Bennett.
    Senator Bennett. Thank you very much, Mr. Chairman.
    Mr. Kincannon, I simply want to follow up on the comments 
made by Senator Thompson. If I can do so without reaching too 
far, I want to give you an analogy that I have just lived 
through on the question of information sharing. We have just 
concluded in Utah the 2002 Olympics and everyone is raving 
about how smoothly they went and how easily things seemed to 
work. I have said to Governor Ridge that the Olympics in Utah 
serve as a model for information sharing to a degree that 
Federal, State, and local officials have never ever experienced 
before.
    I walked into a room roughly the size of this one in which 
you had sitting at computer terminals--and there was one about 
every four feet--representatives of all of the various agencies 
that were involved in the Olympics. Now we should understand 
that the prime task of leading Olympic security rested with the 
Secret Service since this was designated as a national Secret 
Service security event. The President was there and then the 
Vice President was there.
    But on the top of these computers were little cards like 
the one that is in front of you listing the agency that was 
represented there. You had FEMA, the Secret Service, the FBI, 
and then you had the Weber County Sheriff's Department, the 
Salt Lake City Police, the University of Utah Police 
Department. You say, why the University of Utah? Well, the 
Olympic village was at the University of Olympic and the 
opening and closing ceremonies were in the stadium of the 
University of Utah.
    It was absolutely seamless, the sharing of information, and 
absolutely unprecedented. Because always before a Federal 
agency would say, this is ours, and a State agency would say, 
this is ours, and then the policeman on the ground says, I am 
the first responder and I am not going to tell you Feds these 
kinds of things. Everybody told everybody everything and it had 
a tremendous impact on seeing to it that the thing went very 
well.
    So I give you that example. The Chairman and Senator 
Thompson know that I am pushing for information sharing in 
cyberterrorism for exactly the same reason: That things work 
better when people who have significant responsibilities have 
access to accurate information. Now the hang-up with the CBO, 
as I understand it, is that the law says you cannot share 
information unless it has a Census purpose. I am not sure the 
Congress has the slightest idea what a Census purpose is. I 
think the definition of that term probably lies with you.
    My understanding is that you have shared information--by 
you I mean the Census Bureau, not you individually. You have 
shared information quite regularly and quite openly with a 
fairly wide number of Executive Branch agencies. But when CBO 
has come, Census Bureau has said, no, that does not serve a 
Census purpose and you have restricted, under the rubric of 
following the law, giving information to the legislative branch 
that you have been willing to give to the Executive Branch.
    Now as Senator Thompson indicated, CBO has made its own 
arrangements with some parts of the Executive Branch; 
interestingly enough, the most sensitive being the IRS. So the 
information you share with the IRS for a Census purpose, the 
IRS then shares with CBO for a very legitimate governmental 
purpose on the part of CBO.
    What I am hoping you will work toward is avoiding the bank 
shot. In other words, sharing information directly with the 
Congress. The CBO is an arm of the Congress. And saying that 
the legislative branch should be treated with the same 
definition courtesy that the Executive Branch is treated. So if 
you share information with an agency in the Executive Branch--
clearly it has to have a Census purpose under the law--you 
would be equally willing to share that information with the 
legislative branch. By definition, saying if it has a Census 
purpose for one it has a Census purpose for the other.
    Yes, we need to look for the safeguards on security and 
confidentiality. I have been assured by Dan Crippen of the CBO 
that he is more than willing to work out all those safeguards. 
But I would hope you would do as I have described in your 
definition of a Census purpose. And if you discover with 
competent legal counsel that you cannot, that you would be 
willing to notify this Committee, or certainly me, how you 
think the law ought to be changed in order to achieve an 
intelligent kind of information sharing.
    Because if indeed in a past life, prior to the introduction 
of the information age into our world, Congress put shackles on 
you that previously made sense and do not make sense now, and 
you feel you cannot in good conscience by definition change 
those shackles, let us know so that we can change them. Because 
that is what the Congress does is pass laws.
    So to say, we cannot because of the law, you are dealing 
with the people who make the laws and we want to know what 
recommendations you would have to change the law to allow you 
to achieve what I consider, and Senator Thompson obviously 
considers, a very salutary purpose of seeing to it that the 
decisionmakers, just like the security people in the Olympics, 
all talk to each other, so that you have a seamless flow of 
information to the people that really need it, really can use 
it, and that the country as a whole will benefit.
    Now if you want to respond, that would be fine. But I just 
take that point in support and strengthening the point that 
Senator Thompson has already made.
    Mr. Kincannon. I will not respond at length, but I feel I 
should comment on a very cogent argument, a good sermon, as it 
were, in reminding us of what we are doing this for. You are 
right, the Census Bureau in the past 20 or 30 years at various 
points has been able to find joint projects with other Federal 
Executive Branch agencies and with academics and perhaps other 
classes of organizations that do not come to my mind, where the 
project serves a Census Bureau purpose and the other agency's 
purpose.
    My understanding is that the agreement currently active 
between the CBO and the Census Bureau recognizes such a 
purpose. So I certainly do not disagree with what you are 
saying and I will, as I promised Senator Thompson, I will look 
into the particulars of whether we have--where is it broken and 
where can we fix it, if it is broken. I understand the 
usefulness of your analogy, but the information is different in 
its quality and----
    Senator Bennett. I understand that too, yes.
    Mr. Kincannon. All those agencies you mentioned get their 
information in different means than the Census Bureau. But I 
take your point and I do promise that I will personally look 
into it and get back in touch with you, or the Committee as a 
whole, whatever.
    Senator Bennett. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Lieberman. Thanks, Senator Bennett. Senator 
Cochran.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I 
appreciated the opportunity of meeting with Mr. Kincannon prior 
to the hearing and complimented him on his record of service, 
and my assurance that I thought he was well qualified for this 
position, maybe over-qualified. You know too much about it, 
maybe.
    We know that you can still bring a fresh approach and a new 
sense of leadership and responsibility to the position and we 
congratulate you, I congratulate you on your selection. I look 
forward to working with you as head of the Census Bureau.
    I really am sympathetic to the comments made by Senator 
Bennett and Senator Thompson on this issue of sharing of 
information. Currently as I understand it, what CBO has an 
agreement with the Census Bureau for is access to the survey of 
income and program participation. The Census Bureau has agreed 
that they can have that access if they go to a Social Security 
office where the information is held as well and work with the 
Social Security Administration officials to develop a Census 
purpose understanding, and then access is granted to that 
information once they work out this understanding. So it has a 
very limited purpose of helping to develop a public use version 
of the data.
    What I think the problem is, the Census Bureau restricts 
the access by making the information available only at a Social 
Security facility, and for such a limited purpose that CBO is 
unable to really use the data they get to develop long term 
models which would be of benefit to the Congress in its 
consideration of Social Security or Medicare reforms, or 
improvements in those programs.
    One other aspect I think that ought to be considered as you 
think about this, as you have said you would, the CBO is now 
required by law--and we made the law here, just like we made 
the law that governs you--the Congress made the law--so we made 
a law when we created CBO that they would provide the same 
level of confidentiality as is required by law of the agency 
from whom they obtain data. So it is not like you are going to 
commit some gross act of irresponsibility, if you are satisfied 
that there is a Census purpose, or whatever the words of art 
may be.
    I think you can look to this Committee for any enforcement 
mechanisms or restraints, extra legal restraints that may be 
needed in order to get the kind of assurance that you need in 
order to have your conscience clear that you are doing your job 
and you are obeying the law. Because we think the law ought to 
permit responsible sharing of information that protects the 
rights of privacy of people who have given information to the 
Census Bureau thinking that this will be held in confidence. I 
think they can be assured that CBO will too because they are 
required by law to keep it confidential just like you are 
required to keep it confidential.
    So that is the point that I wanted to add to the 
discussion. Thank you very much.
    Mr. Kincannon. That is very helpful. Thank you, sir.
    Chairman Lieberman. Thanks, Senator Cochran. I have no 
further questions. We are going to leave the record open for 
another 2 days. There may be some questions that others will 
want to submit to you and ask for your answer in writing. I 
appreciate your cooperation.
    Senator Akaka was unable to attend the hearing, but is 
submitting testimony for the record. Senator Bunning also have 
submitted a statement, which I would like to add for the 
record.
    [The prepared statements of Senators Akaka and Bunning 
follows:]
                  PREPARED STATEMENT OF SENATOR AKAKA
    Mr. Chairman, I wish to express my support for the nomination of 
Mr. C. Louis Kincannon to be director of the Census Bureau. I had the 
opportunity to meet with Mr. Kincannon earlier this month and found him 
to be well-qualified to assume the mantle of the U.S. Census.
    At our meeting, we discussed the diversity of the Asian American 
and Pacific Islander communities in Hawaii and the nation. He 
understood that my interest in the accuracy of data collection is 
heightened by the fact that Census 2000 data will be used for the next 
10 years in many policy making decisions.
    Because our nominee has spent so much of his professional career at 
the Census Bureau, he was familiar with my efforts to disaggregate 
Native Hawaiians from the Asian Pacific Islander category, which began 
in 1993. My efforts were based on the inaccuracies regarding data 
collection and statistics for Native Hawaiians and the fact that Native 
Hawaiians were being classified with populations that had immigrated to 
the United States, creating the misperception that Native Hawaiians 
were immigrants to the United States rather than the indigenous peoples 
of Hawaii.
    Over the years, I have addressed these inaccuracies through changes 
to Office of Management and Budget (OMB) Statistical Policy Directive 
No. 15, which governs racial and ethnic data collection by Federal 
agencies. I discussed with Mr. Kincannon how in 1997, OMB Directive 15 
was revised, and that Native Hawaiians were disaggregated from the 
Asian Pacific Islander category. A new category entitled, ``Native 
Hawaiians and Other Pacific Islanders'' was created, which addresses 
the inaccuracies in data collection for Native Hawaiians and Pacific 
Islanders. Although agencies have until January 1, 2003, to make all 
existing record keeping or reporting requirements consistent with the 
Directive, provisions of the revised Directive took effect immediately 
for all new and revised record keeping or reporting requirements that 
include racial and/or ethnic information.
    I have been actively encouraging all Federal agencies to begin 
efforts to implement the Directive. The importance of the 
implementation of this Directive to the successful tracking of Native 
Hawaiian and Pacific Islander data is absolutely necessary, and I plan 
to ask the GAO to determine if all 24 CFO agencies are in compliance 
with the Directive.
    Given my long standing concerns with the accuracy of data and the 
importance I place on the decennial census, it is my hope that Mr. 
Kincannon, if confirmed, will work toward hiring a Pacific Islander at 
the policymaking level who could assist in addressing issues 
surrounding accurate data collection and statistics for Pacific 
Islanders. Thank you Mr. Chairman.
                               __________
                 PREPARED STATEMENT OF SENATOR BUNNING
    Thank you, Mr. Chairman.
    Conducting a census is one of the oldest functions of government. 
In 1790, the government's first census found that there were 
approximately 3.9 million Americans, which is only slightly less than 
the number of people who live in my home State of Kentucky today.
    The 2000 census revealed that there are now over 281 million folks 
living in this country, and I would guess that the types of questions 
asked today are nothing similar to the ones asked in 1790.
    As the leader of the Census Bureau, it will be Mr. Kincannon's job 
to lead the agency as it continues sorting through the data from the 
2000 census and begins preparing for the 2010 census.
    This is a big job, and I hope--and expect--Mr. Kincannon to stay 
receptive to suggestions and concerns by Members of Congress.
    Also, it has been brought to my attention that the Census Bureau 
has been reluctant to provide the Congressional Budget Office with 
figures it needs to run some Social Security and Medicare models.
    I have some questions about this, and am looking forward to hearing 
your response.
    Thank you.

    We will try to move this as quickly as we can. I was 
tempted to ask you when that next grandchild is due but it may 
give us more time than we should take to bring your nomination 
before the Senate.
    I thank you. Anything more you would like to say before we 
adjourn?
    Mr. Kincannon. If you will permit, sir, I would like to say 
how much I appreciate the hard work of the staff, many of whom 
I have met with, personal staff and Committee staff of the 
Members of this Committee. They have, without exception, worked 
hard to try to understand what I know and to learn about what 
the Census Bureau is doing, and I very much appreciate it.
    Chairman Lieberman. You are very good to say that. We thank 
you for all your years of service and your willingness to serve 
yet again in this important position. Obviously there are 
points on which we may disagree but I know we will go at those 
disagreements in good faith and with a desire to serve the 
public interest better. I thank you and the hearing is 
adjourned.
    [Whereupon, at 3:30 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T8623.001

[GRAPHIC] [TIFF OMITTED] T8623.002

[GRAPHIC] [TIFF OMITTED] T8623.003

[GRAPHIC] [TIFF OMITTED] T8623.004

[GRAPHIC] [TIFF OMITTED] T8623.005

[GRAPHIC] [TIFF OMITTED] T8623.006

[GRAPHIC] [TIFF OMITTED] T8623.007

[GRAPHIC] [TIFF OMITTED] T8623.008

[GRAPHIC] [TIFF OMITTED] T8623.009

[GRAPHIC] [TIFF OMITTED] T8623.010

[GRAPHIC] [TIFF OMITTED] T8623.011

[GRAPHIC] [TIFF OMITTED] T8623.012

[GRAPHIC] [TIFF OMITTED] T8623.013

[GRAPHIC] [TIFF OMITTED] T8623.014

[GRAPHIC] [TIFF OMITTED] T8623.015

[GRAPHIC] [TIFF OMITTED] T8623.016

[GRAPHIC] [TIFF OMITTED] T8623.017

[GRAPHIC] [TIFF OMITTED] T8623.018

[GRAPHIC] [TIFF OMITTED] T8623.019

[GRAPHIC] [TIFF OMITTED] T8623.020

[GRAPHIC] [TIFF OMITTED] T8623.021

[GRAPHIC] [TIFF OMITTED] T8623.022

[GRAPHIC] [TIFF OMITTED] T8623.023

[GRAPHIC] [TIFF OMITTED] T8623.024

[GRAPHIC] [TIFF OMITTED] T8623.025

[GRAPHIC] [TIFF OMITTED] T8623.026

[GRAPHIC] [TIFF OMITTED] T8623.027

[GRAPHIC] [TIFF OMITTED] T8623.028

[GRAPHIC] [TIFF OMITTED] T8623.029

[GRAPHIC] [TIFF OMITTED] T8623.030

[GRAPHIC] [TIFF OMITTED] T8623.031

[GRAPHIC] [TIFF OMITTED] T8623.032

[GRAPHIC] [TIFF OMITTED] T8623.033

[GRAPHIC] [TIFF OMITTED] T8623.034

[GRAPHIC] [TIFF OMITTED] T8623.035

[GRAPHIC] [TIFF OMITTED] T8623.036

                                   - 

</pre></body></html>
